<html>
<title> - THE IMPACT OF MANDATORY E-VERIFY ON AMERICA'S SMALL BUSINESSES</title>
<body><pre>[Senate Hearing 113-238]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-238

 
                    THE IMPACT OF MANDATORY E-VERIFY
                     ON AMERICA'S SMALL BUSINESSES

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2013

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
86-554                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED THIRTEENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                 JAMES E. RISCH, Idaho, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     MARCO RUBIO, Florida
MARIA CANTWELL, Washington           RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              TIM SCOTT, South Caarolina
BENJAMIN L. CARDIN, Maryland         DEB FISCHER, Nebraska
JEANNE SHAHEEN, New Hampshire        MICHAEL B. ENZI, Wyoming
KAY R. HAGAN, North Carolina         RON JOHNSON, Wisconsin
HEIDI HEITKAMP, North Dakota
WILLIAM M. COWAN, Massachusetts
                Jane Campbell, Democratic Staff Director
           Skiffington Holderness, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1
Risch, Hon. James E., a U.S. Senator from Idaho..................     5
Rubio, Hon. Marco, a U.S. Senator from Florida...................    11

                           Witness Testimony

Poole, Sabrina, President and CEO, SERDI LLC.....................     3
Judson, Rick, Chairman of the Board, National Association of Home 
  Builders.......................................................     3
Burton, David, General Counsel, National Small Business 
  Association....................................................     3
Kearney, Ryan, Manager of Labor and Workforce Policy, National 
  Restaurant Association.........................................     3
Arensmeyer, John, founder and CEO, Small Business Majority.......     4
Fiorille, Frank, Senior Director of Risk Management, Paychex.....     4
Monaghan, Pete, Deputy Associate Commissioner for Data Exchange 
  and Policy Publications, Social Security Administration........     4
Lotspeich, Katherine, Deputy Chief, Verification Division, U.S. 
  Citizenship and Immigration Services...........................     4

          Alphabetical Listing and Appendix Material Submitted

Arensmeyer, John
    Testimony....................................................     4
    Prepared statement...........................................    55
Burton, David
    Testimony....................................................     3
    Prepared statement...........................................    36
Fiorille, Frank
    Testimony....................................................     4
    Prepared statement...........................................    57
Judson, Rick
    Testimony....................................................     3
    Prepared statement...........................................    34
    Letter dated June 4, 2013, to Senators Landrieu and Risch....    35
Kearney, Ryan
    Testimony....................................................     3
    Prepared statement...........................................    38
    Report titled ``2012 E-Verify Survey: Summary of Results''...    39
Landrieu, Hon. Mary L.
    Opening statement............................................     1
Lotspeich, Katherine
    Testimony....................................................     4
    Biographical sketch..........................................    61
Report titled ``E-Verify Overview''..............................    62
Map of States with Mandatory E-Verify Laws.......................    71
Monaghan, Pete
    Testimony....................................................     4
    Prepared statement...........................................    59
National Federation of Independent Business
    Prepared statement...........................................    74
Poole, Sabrina
    Testimony....................................................     3
    Biographical sketch..........................................    32
Risch, Hon. James E.
    Opening statement............................................     5
Rubio, Hon. Marco
    Opening statement............................................    11
The Main Street Alliance
    Letter dated May 28, 2013, to Senators Landrieu and Risch....    72


                    THE IMPACT OF MANDATORY E-VERIFY
                     ON AMERICA'S SMALL BUSINESSES

                              ----------                              


                         THURSDAY, MAY 16, 2013

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:59 a.m., in 
Room SR-428A, Russell Senate Office Building, Hon. Mary L. 
Landrieu (chair of the committee) presiding
    Present: Senators Landrieu, Shaheen, Risch, and Rubio.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, CHAIR, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chair Landrieu. Good morning, everyone. Our Small Business 
Roundtable on E-Verify will come to order. I really appreciate 
your patience. Both while the ranking member and I were 
required at an earlier meeting and we could not leave or the 
business of that Committee could not get done.
    So, we got here as soon as we could, and really, really 
appreciate you all joining us this morning. I am going to start 
with just a short opening statement. This meeting will go until 
about 12:15, if you all can adjust your schedules to stay. If 
some of you have to leave at 12:00, I understand.
    Good morning and thank you for joining us for this 
roundtable. The purpose of today's roundtable is to discuss the 
ramifications of the E-Verify program on small businesses as 
proposed in S. 744, The Border Security Economic Opportunity 
and Immigration Modernization Act of 2013.
    The central question we will consider today or some of the 
central questions are, one, is the E-Verify mandate in the bill 
before the Judiciary Committee workable and affordable for 
small businesses; two, how does the system currently work for 
large and small employers in states where it is mandatory now--
and there are examples around the country.
    Three, are there effective alternatives to the E-Verify 
system that could be utilized by small businesses; and if so, 
what would they look like and how would they be shaped and 
designed?
    And finally, what suggestions do the participants in 
today's roundtable have to make the E-Verify system as 
convenient as possible for small business owners?
    We have assembled here today a very impressive group of 
policy experts and small business owners to have a very 
informal exchange. This is not official hearing but, of course, 
our record will go into the Congressional Record and will be 
submitted to the Judiciary Committee as they consider the 
markup.
    And so, what is spoken here, of course, is very important; 
and hopefully, it will be helpful to members of Congress as we 
move forward on this important piece of legislation.
    As the Senate Judiciary Committee considers S. 744, the 
goal of this Committee is to give a platform for small 
businesses to speak about issues that are of particular concern 
to them.
    And this has come up as I have traveled around the country 
and as people have come into my office there is a lot of 
interest in how the E-Verify system, particularly in its 
mandatory form, may affect small business.
    So, we wanted this morning to provide a platform which is 
one of the important roles of our Committee to discuss that. We 
will share the ideas, comments, and questions, as I said, with 
the Committees of jurisdiction. So, I thank you all for 
preparing your remarks today.
    As I mentioned, and the next week, I wanted to say, the 
Committee will host another roundtable focused on some 
different challenges faced by startups and small and medium 
size business relative to workforce training and the workforce 
gaps that are also part of the immigration reform bill. We just 
want to make sure that small businesses get their voice heard 
on these issues as this markup is going on.
    According to the Small Business Administration's Office of 
Advocacy, there are 28 million small businesses in the country, 
including six million very small employers. Small businesses 
represent over 99 percent of all employer firms, are 
responsible for nearly 50 percent of all private-sector 
employment, employing more than 55 million workers and account 
for nearly 43 percent of all private-sector payroll.
    So, there is nothing small in America about small business. 
These businesses are not only critical to the Nation's economic 
future but play a critical role in ensuring that those who are 
working in this country are eligible to do so.
    E-Verify, as the federal electronic employment verification 
program available to employers to validate an individual's 
lawful employment status, provides the primary means for 
employers to do that.
    E-Verify is an online system that uses data from the U.S. 
Department of Homeland Security. That will be explained more 
later and how it works currently.
    At the federal level with the exception of federal 
contractors, including small businesses contracting with the 
federal government, participation in E-Verify is currently 
voluntary in most parts of the country.
    I am going to let you all discuss what is happening in 
Alabama, Arizona, Mississippi, and South Carolina. We will 
discuss that in the form of questions.
    So, let us get right into our panel discussion; and if each 
one of you starting with Ms. Poole will identify yourself and 
just say, you know, a word about yourself and your background 
and maybe a comment or two for a minute about the number one 
idea you want to leave with us today.
    Ms. Poole. Good morning----
    Chair Landrieu. You have to speak right into the microphone 
and push your button to talk.
    Ms. Poole. Good morning. I am Sabrina Poole. I am the 
President and CEO of SERDI LLC. SERDI is a small, woman-owned, 
8(a), certified IT consulting firm. We provide many services to 
the Federal Government and have a few commercial clients.
    I really want to discuss today and learn more about the 
impact of E-Verify on my business. We are looking at cost. We 
are looking at compliance issues with being compliant and not 
being fined. And, I hope to leave here today with more 
information and knowledge on how that is going to be fixed.
    Thank you.
    Chair Landrieu. Thank you.
    Mr. Judson.
    Mr. Judson. Thank you. My name is Rick Judson. I am a 
builder and developer from Charlotte, North Carolina. I am also 
the Chairman of the Board of the National Association of Home 
Builders which is about 140,000 member companies, by 
definition, the majority of which are small businesses.
    I also ran a large insulation contracting firm, 
subcontracting firm in 16 different states. So, dealing with 
some of the regulatory environments from different states was a 
challenge in its own right.
    But NAHB does support fully some sort of E-verification 
system. We want to make sure it is workable and economically 
viable, just as you pointed out earlier. So, I am glad to be 
here with you and hope to make some contributions.
    Chair Landrieu. Thank you, Mr. Judson. We really appreciate 
because the home builders are an important alliance in our 
country and will be right in the forefront of many of the 
aspects of this immigration bill.
    Mr. Judson. Thank you.
    Chair Landrieu. Mr. Burton.
    Mr. Burton. My name is David Burton. I am the General 
Counsel for the National Small Business Association. We are 
opposed to mandatory E-Verify; but I think in the current 
political context, we are almost certain to get it.
    We have come up with a number of specific proposals to make 
an E-Verify system that will work better, work better for small 
businesses but also protect ordinary American citizens who are 
seeking employment in this country. E-Verify as proposed 
without amendment will affect literally hundreds of thousands 
of Americans adversely as they try to earn a living for their 
families.
    Chair Landrieu. Thank you so much.
    Mr. Kearney.
    Mr. Kearney. Good morning. I am Ryan Kearney. I am the 
Manager of Labor and Workforce Policy with the National 
Restaurant Association. Thank you for the opportunity to be 
here. We are happy to discuss this important subject. I would 
be more than willing to discuss an E-Verify survey that we 
released two weeks ago that shows very high satisfaction among 
our members that use E-Verify.
    Chair Landrieu. Wonderful. Could you speak into the mic a 
little bit more please.
    Mr. Kearney. Okay.
    Chair Landrieu. We will get back to the details but that 
would be terrific, and thank you so much.
    Mr. Kearney. Please do.
    Chair Landrieu. Mr. Arensmeyer.
    Mr. Arensmeyer. Thank you, Madam Chair, and thank you for 
holding this roundtable. I am John Arensmeyer. I am founder and 
CEO of Small Business Majority. We are a national small 
business advocacy group founded and run by small business 
owners.
    We are here to make sure that any electronic verification 
system does not create undue burdens for small business owners 
and legally authorized workers. National scientific polling 
that we conducted in March shows that nine in ten small 
business owners agree that our immigration system is long 
overdue for a major overhaul and are eager to fix the broken 
system.
    Our primary job creators agree something must be done 
because immigration is good for America and good for small 
business.
    Chair Landrieu. We do not have to go into the statement 
now. Just something a short. That is fine. That is perfect.
    Mr. Arensmeyer. Okay.
    Chair Landrieu. We will come back.
    Go ahead, Frank. Mr. Fiorille. Frank Fiorille.
    Mr. Fiorille. Good morning. Frank Fiorille. I am the Senior 
Director of Risk Management at Paychex. Paychex actually has a 
unique perspective on this since we actually pay one out of 
every 15 private-sector employees every two weeks. What I would 
like to see is how this group can strike the right balance of 
not having something overly burdensome for small business and 
yet an efficient solution to this problem.
    Chair Landrieu. Thank you so much.
    Mr. Monaghan.
    Mr. Monaghan. Thank you, Senator. I am Pete Monaghan from 
the Social Security Administration. I am Deputy Associate 
Commissioner for Data Exchange and Policy Publications. I am 
here to discuss our role in E-Verify, how we verify the Social 
Security number, and some other elements. I will be glad to 
discuss that in more detail.
    Chair Landrieu. Thank you very much.
    Ms. Lotspeich.
    Ms. Lotspeich. Thank you. Good morning. My name is Kathy 
Lotspeich. I am Deputy Chief for the Verification Division at 
U.S. Citizenship and Immigration Services. We run the E-Verify 
program in partnership with the Social Security Administration. 
I am happy to talk today about how the system works and to 
clear up any questions or confusion people might have about its 
operation.
    Chair Landrieu. Thank you so much. Excellent introductions. 
Senator Risch has joined us, and I explained that we were 
delayed because we both were needed for a quorum in an earlier 
meeting with Energy.
    Senator, do you want to say any just short opening 
statements. We are going to work until about 12:15.

 OPENING STATEMENT OF HON. JAMES E. RISCH, A U.S. SENATOR FROM 
                             IDAHO

    Senator Risch. Well, briefly, first of all, thank you all 
for coming today. This is not the primary jurisdiction of this 
Committee. It is the Judiciary and Rules Committee. In fact, 
they are meeting right now writing this bill.
    But we will have considerable input into them. Between the 
Chairman and I, if we have got parts of that bill that need to 
be changed, I think we have got sufficient horse power with the 
members of our Committee to do that.
    We are really interested in how this affects small 
business. One thing I want to explore as we get into this, we 
pass all these laws in America and law abiding American 
citizens agree to them. They are a burden to some degree. Every 
time we pass a law is a burden on somebody, some entity.
    How many people are going to avoid this, that is, how many 
people are going to, how many people are just not going to 
comply? That is always of concern to me, and I will be 
interested in hearing, Mr. Burton, your ideas on that and all 
of you who represent these small businesses.
    Mr. Burton, you have got a practical approach to this and 
that is it is probably coming one way or another given the 
current state of affairs in the country. So, how do we live 
with this, that is, how do we make it better? How do we knock 
the rough edges off of this?
    Mr. Arensmeyer, I am looking for you too to help us and all 
of you actually to help us with this, to make this as usable as 
it possibly can to small business because there will be some 
benefits with it too.
    Obviously, if you comply with E-Verify, then you are off 
the hook, that is, you do not have to worry about the Federal 
Government coming in and breathing down your neck and causing a 
problem which is a, which is always a problem for businesses 
that hire immigrants.
    So, with that, thank you so much all of you for coming and 
thank you, Madam Chair.
    Chair Landrieu. Thank you very much. Let us begin and we 
are joined by Senator Shaheen. Did you have any brief comments 
to begin, Senator?
    Senator Shaheen. No. Unfortunately, I am going to have to 
leave before the discussion is over but I am sure like the 
Chair and Ranking Member my interest is in hearing how you 
think this is going to affect small businesses and any changes 
we can make to make it easier for our small businesses.
    New Hampshire is a State that is primarily small business, 
and so, we want to do whatever we can to try and ensure that 
small businesses are benefitted and not harmed by what we might 
do around the E-Verify.
    Thank you, Madam Chair.
    Chair Landrieu. Wonderful. Okay. Let us get right into our 
roundtable. The process of these roundtables is very different 
than a hearing. I am going to throw out some questions. If you 
all want to respond, I will direct some questions to some of 
the panelists but please feel like if you want to jump in and 
if you do just put your sign standing up vertically and that 
way I will know to call on you. We really want to have a good 
discussion and we only have an hour so we are going to try to 
get it as much as we can.
    I want to start, Kathy, if you do not mind with you. If you 
could do a three- or four-minute clear explanation as to the 
system that is in effect today which I understand you are 
primarily responsible for, one of the people responsible.
    It is a voluntary system as far as the U.S. government 
goes. It is mandatory, I understand, in a few states in the 
union. Those would be Arizona, help me here, Alabama, 
Mississippi, South Carolina with some exceptions. But it is 
currently a voluntary system with small businesses. Here is a 
map.
    But take four minutes and explain to us how the system is 
working now and to just kind of start our the discussion.
    Ms. Lotspeich. Certainly. Thank you very much. For 
reference, there is a power point. I will not stick to that but 
just know you can look at that if you want to look at screen 
shots or to take back with you.
    But basically, the employer asks the employee to fill out 
the Form I-9, which is that form that you must fill out to 
prove that you are authorized to work in the United States. You 
show documents.
    The employer then takes that form and enters information 
into the E-Verify system. That information is then sent to the 
Social Security Administration and to the Department of 
Homeland Security to check to see if there is a match. If that 
name, Social Security number, date of birth, citizenship status 
match.
    If that information does not match, then the system will 
send back what we call a tentative nonconfirmation. We call it 
a TNC for short, a tentative nonconfirmation.
    The employer then is instructed to inform the employee that 
they have a tentative nonconfirmation and they must follow-up 
with either the Social Security Administration or the 
Department of Homeland Security.
    Chair Landrieu. Currently, what is the percentage of 
noncompliance and are you getting more accurate as the system 
is being developed?
    Ms. Lotspeich. When you say ``noncompliance'' you mean 
people----
    Chair Landrieu. How many are sent back to the employer that 
asks to----
    Ms. Lotspeich. Right now about 1.3 percent, looking at this 
fiscal year 2012 data.
    Chair Landrieu. How many did you process in the year?
    Ms. Lotspeich. 21 million queries last year.
    Chair Landrieu. Out of 21 million queries last year, you 
only kicked back about 1.3 percent?
    Ms. Lotspeich. That is correct.
    Chair Landrieu. Can I assume that you all are learning more 
and more and more since we have had a little bit of this 
voluntary experience underneath our belts how to get that 
quickly back, because that is what I think the small business 
employers need to know?
    Ms. Lotspeich. The employer gets to an answer within 
seconds regardless.
    Chair Landrieu. Seconds?
    Ms. Lotspeich. Absolutely. So, at 98.3 percent of the time 
in the fiscal year 2012, the employer got back an employment 
authorized response. So, they did not have to do anything more. 
They just had to record that response on the Form I-9 and store 
it for their records.
    If the answer that came back was a tentative 
nonconfirmation, the system automatically generates a letter 
for the employer to give to the employee that is pre-populated 
with all of the employer's information about that, the 
employee's information about that particular case and 
instructions on what they are supposed to do next.
    If the employee decides that they want to contest that 
tentative nonconfirmation, then they sign this letter, give it 
to the employer and the employer then refers that case either 
to SSA or DHS; and by referring, basically they press a button 
on the screen that says refer case.
    Once a case is referred, a time clock starts for eight 
federal working days. The employee then either has to go in 
person to the Social Security Administration and update any 
information or clarify any information that SSA needs in order 
to close that case as work authorized or in the case of a 
mismatch with Department of Homeland Security, then they can 
call on us at 1-800 number and fax us information or send us 
information that we might need to settle their case.
    Right now out of all the cases that E-Verify runs, about .3 
percent of them are work authorize individuals who needed to go 
through this process. That .3 percent has been declining as we 
have had a study done and about five years ago it was more 
around .7 percent. So, we really tried to close that gap with 
having work authorized employees having to go through this 
process.
    There are a lot of reasons that a person could get a 
tentative nonconfirmation or data mismatch with E-Verify. For 
example, they might not have updated their name or citizenship 
status. There might have been an inadvertent error on their 
Form I-9 or the employer may have also entered information 
incorrectly into E-Verify.
    And, do not forget that of this 1.3 percent that are not 
coming back with an employment authorized, those are also 
flagging people that are not authorized to work, and the 
majority of people that get the tentative nonconfirmation which 
is about almost 80 plus percent of them do not follow up with 
either SSA or DHS to rectify that.
    Chair Landrieu. Thank you so much. I am going to ask Mr. 
Monaghan to jump in here, Peter, if you would. And, we have 
been joined by senator Rubio, who is one of the lead sponsors 
of our comprehensive immigration bill, and Senator, before you 
came in, and thank you for your leadership.
    Our Committee is focused on, as the bill moves through 
Judiciary and it is being marked up today, our Committee is 
giving voice to small businesses for them to really be able to 
express either their support or nonsupport for the mandatory E-
Verify that is in the bill.
    Most people here are supportive although there are some 
that are not. But we are looking at all sides of that to see 
if, you know, the language in the bill that you have introduced 
with other colleagues should be improved or, you know, just 
answering some questions that some of the small business owners 
here. And Kathy just gave a good explanation of how it is 
working now on a voluntary.
    Senator Risch.
    Senator Risch. Kathy, let me follow up with you for just a 
minute. I followed you all the way along and I think I 
understand it. The one question I have is: Once the employer 
sends in the information and says, I want you to verify, and 
you guys take it back and say, no, this person is not 
authorized, as I understand it, then you generate a letter and 
the employer is required to give that letter to the potential 
employee, the applicant. Okay.
    Then if the applicant is dissatisfied, they sign the letter 
and the employer has to return the letter to you, is that 
correct?
    Ms. Lotspeich. Not exactly. So, let me walk through that 
real quickly.
    Senator Risch. Okay. Just that narrow area is where I am 
confused.
    Ms. Lotspeich. Yes. First of all, it is not applicant. It 
is already somebody that has been hired. So, they have been 
offered the job. They accepted it. They have gone through the 
Form I-9 process and now they are onboard.
    So, the employer gets a response. We never give a response 
saying this person is not work authorize. We give a response 
that says there is a mismatch with the data with the 
government, and the individual----
    Senator Risch. What is the employer supposed to do when he 
gets that?
    Ms. Lotspeich. The employer is supposed to give the 
employee a letter telling them that they need to follow-up with 
the government in order to rectify.
    Senator Risch. Can employers say, I do not want to mess 
with this. You are fired?
    Ms. Lotspeich. No, they are not supposed to do that. They 
sign a memorandum of understanding with the DHS saying that 
they will issue this information to the employee and that the 
employee has the right to continue working while they are 
resolving the case. The employer may not terminate them.
    Chair Landrieu. Mr. Monaghan, can you add a little bit from 
the perspective of the Social Security Administration?
    Mr. Monaghan. Sure, Senator.
    Chair Landrieu. Speak into your mic if you would.
    Mr. Monaghan. Sure. As Kathy said, we receive the 
information from the system--name, Social Security number, date 
of birth--and we confirm this information. If we have 
citizenship information or lawful permanent residence 
information, we send that back also and E-Verify gives the 
employer the verification.
    If any of those items do not match, then we send back a 
tentative nonconfirmation. To fix that, hopefully the person 
comes in to our office with the non-confirmation letter and 
then notifies our employee exactly why they are there.
    These cases typically involve a Social Security card fix. 
We do this all the time. In E-Verify cases we have to do a 
little bit more so E-Verify can notify the employer and stop 
the eight-day clock.
    So, the person comes into our office. They will need to 
provide some kind of proof to correct or update their record. 
For example, if the match failed because a person got married 
and never changed their name, they would come into our office, 
provide proof of name change. We would correct the record, stop 
the eight-day clock.
    Chair Landrieu. All of this has to be done within eight 
days.
    Mr. Monaghan. Right.
    Chair Landrieu. Under the proposed law? No?
    Ms. Lotspeich. Currently, yes. But under the proposed law, 
I believe they have made a wider window for that process.
    Chair Landrieu. Okay. Could somebody check to see what that 
is, on the staff, 30 days, et cetera?
    Do people have any questions about this? John, do you want 
to respond in any way to the current system that your members, 
some of your members are using, because, in fact, I mean, I am 
really coming at this neutral. I do not know a lot about this 
issue one way or the other. I am generally supportive of the 
immigration bill, but I do not have a strong feeling right now 
about the system one way or another.
    My State does not employ it so I am not that familiar with 
it. But what I can say broadly in my understanding is this 
could be a great help to small businesses who are currently 
having to take this load themselves to do some of this work on 
whether their employees have the right work permit or not.
    If the system can be put into place, it could be a great 
help to very small businesses that just push a button and they 
get a response back pretty quickly. I mean, I could see this as 
a benefit but I do not know.
    Senator Risch. Madam Chairman, I agree with you 100 percent 
except that it could not only be a great benefit, it could be a 
real pain in the whatever for a small business.
    Chair Landrieu. To the business?
    Senator Risch. Absolutely.
    Chair Landrieu. In what way?
    Senator Risch. First of all, you know, to me, my philosophy 
is that this problem should not be the employer's problem. This 
should be the employee's problem. If this thing kicks back and 
says that you are not qualified to work, as far as I am 
concerned, I think that is the end of it for the employer.
    That is not the law today, I understand, but the burden 
ought to be on the employee, not on the employer. The employer 
has got a business to run. He does not want to get involved 
in--she is nodding her head yes--he does not want to get 
involved in somebody has come in and they say, well, you have 
got this. Well, now they want to be in talking to you for an 
hour a day when you are trying to make widgets.
    You know, that is the only problem I have with this. I 
agree with you. To me, the real benefit is if you can get the 
Federal Government off your back and you say, look, I got a 
number that says this guy was cleared, get out, you know, and 
you are done with the federal inspector or whoever.
    Chair Landrieu. Now, remember, though, the way Kathy just 
spoke about it--I understand what you are saying. But the way 
Kathy just spoke about this, this is an employee that has 
already been hired by the employer so the employer must like 
this employee or they would not have hired them.
    And, I would imagine that if they hired somebody, they 
would like to keep them but maybe not----
    Senator Risch. Well, they like----
    Chair Landrieu [continuing]. But also benefit--let me just 
say this--the benefit or the problem to resolve this is not 
with the employer. It is with the employee.
    If the employee cannot get their documentation correct, 
then the employer can let that person go within 30 days, after 
30 days.
    And then I will get you, Jeanne.
    Go ahead.
    Ms. Lotspeich. Well, yeah, if they do not respond and 
rectify the case within that eight-day time clock, then----
    Chair Landrieu. Eight-day time clock.
    Ms. Lotspeich. Yeah. But if there is a, the government----
    Chair Landrieu. They can be fired.
    Ms. Lotspeich. Yes.
    Senator Risch. Okay. With no liability to the company.
    Ms. Lotspeich. That is correct.
    Chair Landrieu. Okay. Let us talk about that. Jeanne, do 
you want to say something, Senator? let me recognize you.
    Senator Shaheen. To this issue, no.
    Chair Landrieu. Go ahead. Let me recognize you. Go ahead.
    Mr. Burton. And you should evaluate the General Accounting 
Office's report on this. It takes three months, on average, to 
resolve the typical tentative nonconfirmation.
    If you suddenly impose this on all new hires, that could 
easily become a year. Meanwhile, the small employer has to pay 
and keep this person on even though it is more likely than not 
that they are ultimately going to have to be discharged.
    Chair Landrieu. Okay. Let us talk about this. This 
exactly----
    Mr. Burton. There are a lot of other problems with E-
Verify. It is not a simple, painless thing. There are things 
that can be done to make it better.
    Chair Landrieu. Okay. That is what we want to talk about 
today.
    Senator Risch. That is what we want to get.
    Chair Landrieu. That is what we want to hear.
    Kathy, you respond. And then Senator Risch. Go ahead, 
Senator Risch, you first and then Kathy.
    Senator Risch. You said, and that confirms what you said 
and that is that 80 percent of them do not even contact you to 
straighten it out, am I right on that, 80 percent of the 
kickbacks?
    So that----
    Mr. Burton. You have an easy out now. You go to an employer 
where E-Verify is not mandatory because in most states it is 
only federal contractors. So, you just go find someplace else 
to work. Right.
    So, there is not going to be an easy out in this new regime 
we are talking about. Take the 1.3 percent number that she just 
said and that has not been independently verified. It used to 
be higher. All right.
    That means that with 50 and 60 million new hires a year 
that over half a million American citizens are going to get 
caught up in this bureaucratic morass to exercise one of their 
most fundamental rights, the right to work and earn a living 
and support their family.
    There is a need to make this fixed. There is the need to 
make it right, and we can do it. But right now the way this 
process is rolling, nobody is interested in making E-Verify 
work.
    Chair Landrieu. Hold on. Just a minute before you charge 
off.
    Mr. Burton. I thought I was doing well.
    Chair Landrieu. The Senators and I would not be sitting 
here if we were not interested and you would never have been 
invited. So, the system may be rolling in other committees but 
our Committee is sincerely interested in a bipartisan way of 
hearing this so if everybody could just tap down a little bit.
    I know you're feeling and so are we, you know, this is a 
big movement but that is what our Committee is for and I am 
very proud of our Committee to give voice to small business.
    If we can figure out some of these things, we most 
certainly will do so. So, let us try to be clear and specific. 
But I understand what you are saying.
    Right now because E-Verify is not mandatory, there are lots 
of people working in this country, not American citizens, 
people working in this country that should not be working in 
this country because they do not have a work visa to work but 
they are working anyway.
    And, there is a big movement in the country to make sure 
that American citizens get jobs and not people that are here 
illegally, at the same time balancing that with the needs of 
the workforce.
    And so, when this becomes mandatory, you are right. What 
happens is now, I guess, people that cannot get their 
documentation straight just leave that employer and go to 
someplace else where they will not be checked. But under the 
new system, everybody is going to have to be checked if this 
moves forward.
    Senator Rubio, did you want to add anything on this----
    Senator Rubio. Yes, couple of points.
    Chair Landrieu [continuing]. Because I really appreciate 
your views.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
                            FLORIDA

    Senator Rubio. Right. And so, I think one of the, maybe 
perhaps what is creating a lot of consternation is we are 
looking at the existing system and saying, we are going to 
apply this existing system to the whole world and make you do 
it right away.
    So, let me just back up and say a couple of things about 
immigration reform. There will not be immigration reform 
without some sort of employer verification system, because, 
when we talk about securing the country, the magnet that does 
bring people in here illegally is the desire to work. So, there 
is a need for some sort of system.
    We recognize the costs of it and, you know, we want to make 
sure this is not something that is so costly that people cannot 
use and also you have to scramble back and fix it.
    So, let me just say that if there are ways to make it 
better, everybody wants to make it better. But a couple of 
points I would say.
    Number one, we are not talking about suddenly requiring it 
of anybody. I have heard that term used a moment ago. 
Especially for smaller-sized businesses, there is a significant 
phase-in period. I think it is four years if I am not mistaken. 
Is it four? So, that is number one.
    Number two, our desire is not to create a mechanism to 
force businesses to do anything. It is to create a safe harbor 
so that basically if you end up hiring someone who turns out to 
have been here illegally, you can say I ran them through the 
system. Here are the papers I printed from that screen. They 
said this was their name. I ran it against this database and it 
said that they were okay and I have got a paper that proves it.
    That becomes a safe harbor for the employee, employer, I am 
sorry, to be able to protect themselves against what is going 
to be a significant increase in penalties for those who do 
violate the law in that regard.
    The last point, and the one you raised about people that 
are in this country that may get caught in the bureaucracy, so 
there are a couple of ways that we created a couple of safety 
valves in that regard.
    One of them is, if I am a U.S. citizen and I go apply for 
work and somehow I get caught up in a snafu where it is saying 
I am not authorized, I just produce a passport. That passport 
is a valid passport.
    That is the kind of good faith, de facto information that 
will allow you to overcome. The employer would have to make a 
photocopy of that passport, put it in the file and say the 
system kicked him back but we got this passport. This is their 
picture. That is the guy I saw, and that is why I hired them.
    Those are just one example and I know this is pretty 
detailed. I think it is one of the largest portions of the bill 
because of how detailed it is.
    But I appreciate you holding this hearing because this 
system has to work. I mean, it has to work for everyone 
involved. On the employer side, the enormous majority of 
employers are not in the business of hiring illegal aliens to 
work for them. They simply want a way to verify that, if we are 
going to require that, if we are going to create these 
penalties for people that hire those who are here illegally, 
then you have got to create a system that people can comply 
with so that they have a safe zone.
    Otherwise, you are at the mercy of what we have today which 
is somebody shows up with a Social Security card with someone's 
name on it, they claim to be that person, and that is it.
    And if you hire them and it turns out that that is not the 
person, you could be in trouble even though you are relying on 
what looked like a valid Social Security card.
    If we can make this right, it will be better for everyone 
but we have got to make it right and certainly we want to make 
sure that that happens.
    And I appreciate, I think this Committee is the logical 
place to take the lead in any changes that we need to make in 
the current language we have drafted to ensure that these goals 
that I have talked about are being met.
    Senator Risch. Madam Chairman, first of all, Marco, we are 
glad to have you here. This is really important because, you 
know, we sit here in the halls of Congress and we draft these 
laws and there is all the language and, like you say, it is 
pages and pages.
    And yet, we all think, well, you know, this is how it is 
going to be. Mr. Burton tells us what happens. Every small 
business in America knows what happens when you get mixed up 
with the Federal Government, whether it is OSHA whether it is 
EPA, whether it is Homeland Security, whoever it is.
    What we draw up here, in our minds everything is neat and 
clean and orderly. But when the bureaucracy gets a hold of it, 
they start writing rules and regulations that we do not have 
any control over and it just becomes a nightmare for people, I 
mean.
    So, in any event, I think it is really important that we do 
hear these kinds of things and we do make it work as best as 
possible.
    Chair Landrieu. Senator Shaheen.
    Senator Shaheen. I understand that the current system is 
free to employers and maybe Senator Rubio can answer this 
question. What is being talked about in terms of the new system 
that will cover everybody, how is that going to be paid for? Is 
there going to be a charge to the businesses who participate?
    And my second question I think is for you, Kathy. I am 
sorry I cannot pronounce your last name.
    Ms. Lotspeich. Lotspeich.
    Senator Shaheen. Ms. Lotspeich. I think your answer to 
Senator Landrieu was about how many potential employees who are 
being checked out do not pass the E-Verify test.
    My question is: Do we have enough data to know what the 
inaccuracy is of E-Verify in its current form and can we 
extrapolate if we take it broader for all businesses what the 
percentage of accuracy is going to be?
    Senator Rubio. Just on the cost side, so the bill, 
obviously there is a startup cost to enhance this E-Verify 
system so that it is accurate in terms of the information, 
because right now the bigger problem is if I give you a name, 
if I show up with a Social Security number that I bought from 
somebody and you run it through the system, it will say, yeah, 
he is verified but that is not me. And so, the system needs to 
be enhanced.
    That is being paid for through a series of fees and the 
fines that are being leveed on those who have violated our laws 
on the visa programs, not the small businesses that are 
utilizing E-Verify but on the visa programs that we are putting 
in place to create a fee schedule that help pay for the 
upgrades to E-Verify and the upgrades to the entry-exit 
tracking system as well for guest workers.
    Senator Shaheen. Can you answer on the accuracy piece?
    Ms. Lotspeich. Absolutely, yes.
    We have seen an increase in accuracy for work authorized 
workers. So, about five years ago .7 percent of all queries 
were work authorized employees who had to follow up with the 
government and then were subsequently found work authorized. 
That has declined to about .26 percent, about .3 percent, since 
we have been working on enhancing the system in 2007.
    I believe the latter part of your question was whether or 
not we could extrapolate that to the broader population. I 
think it is challenging to do so because the employers that are 
enrolled in E-Verify now are not necessarily a representative 
sample of all employers.
    However, I would say that of our employer base now, 81 
percent of them have 100 or less employees on their payroll. 
So, we consider those to be smaller employers.
    Senator Shaheen. Thank you.
    Chair Landrieu. You wanted to say something?
    Mr. Burton. Well, we talked about a number of things but 
one of the amendments being offered today by Senator Franken 
would establish an advocate's office within USCIS, similar to 
the Taxpayer Advocate at the IRS and that would protect 
American citizens and small employers so that they could issue 
an assistance order if there is a mistake in the database and 
USCIS bureaucracy runs amok and that is one specific thing that 
I think deserves support from people who believe in E-Verify.
    There is also, I think, a need to re-evaluate the level of 
penalties in the proposal. The criminal penalties associated 
with E-Verify now are more comparable to what we would normally 
associate with violent felonies.
    They were 10 years; now they are five years. The penalties 
are up to $25,000 per violation and then following the White 
House proposal that was leaked, the current bill also would 
allow those penalties to be increased by the Administration 
potentially to as much as $75,000 per violation if there was a 
previous employment or other labor law violation potentially as 
little as $500.
    These are ruinous fines. It will destroy people's life 
savings for failure to use E-Verify even if their employees 
were lawful. Just a failure to use E-Verify can destroy 
someone's life; and there are a number of other things as well.
    The accuracy standards should be high. The USCIS, as you 
just heard, claims 0.26 percent. There has to be incentives in 
this bill for USCIS is to meet accuracy standards.
    They help everyone. They help employers. They help ordinary 
Americans. Those error rates are not very good compared to what 
you would normally see in the private sector. This is just a 
database matching program. They should be able to do better and 
there needs to be incentives for them to care.
    It was only when the GAO looked into this that they 
actually started to substantially reduce it. We need to put 
incentives in the bill. People respond to incentives. We know 
that. The same with government agencies. They respond to 
incentives.
    Chair Landrieu. Well, those are some excellent suggestions.
    And one thing, Senator Rubio, that, I mean, there were 
three or four very good suggestions that, you know, will be 
recorded from this roundtable. But one that came immediately to 
my mind is that the penalties should be different for big 
businesses and small businesses.
    I mean, a $75,000 penalty to GE is absolutely nothing, and 
a $75,000 penalty to an employer that has two employees is 
literally life wrecking. So, I need us to consider that. Maybe 
there needs to be a penalty scale or something like that for 
small and large businesses.
    Mr. Burton. The bill does contain graduated----
    Chair Landrieu. Okay. Let us look at that graduated penalty 
piece.
    John, what are some of the thoughts that you can give and 
then, Rick, I am going to call on you to kind of add some 
things to this discussion. Your organization strongly supports 
the bill, and why do you not talk for a few minutes about why, 
for E-Verify.
    Mr. Arensmeyer. First of all, I wanted to echo, I mean, we 
do support an enforcement mechanism. Our polling shows that 
small businesses across the country want an enforcement 
mechanism. I think the question is the devil is in the details. 
How is that enforcement mechanism working?
    I want to echo what David said. We are very concerned about 
the penalties, and we also do support the amendment to set up 
the office to help small businesses.
    I also want to pickup on this error rate. We do support the 
amendment, the bipartisan amendment by Senators Franken, Lee, 
and Hirono to actually delay implementation of the enforcement 
mechanism for businesses of fewer than 50 employees until that 
error rate does get back down or meets the current standard of 
.26 percent, because I think we do not know what is going to 
happen when the system, it may be accurate that it is .26 
percent now but once it starts to encompass the whole country 
with many more employers, I think it is going to be a bigger 
concern.
    So again, I mean, you know, there is huge support, 
bipartisan support in the polling that we just did across-the-
board, more bipartisan support than we ever see for anything 
else, for immigration reform.
    It absolutely includes strong enforcement mechanisms but I 
think what is so important about you holding this roundtable 
here is that we do have to make sure that whether it is the 
penalties, whether it is the error rate and how that is going 
to impact small businesses, whether there is adequate support 
from the Federal Government, that those are taken into 
consideration as the enforcement mechanisms are set up.
    Chair Landrieu. Excellence.
    Go ahead, David.
    Mr. Burton. Well, I appreciate the support.
    A number of other things that, I mean, there is one very 
good thing that Senator Rubio alluded to in the legislation 
which is a provision that would protect employers who made 
employment decisions based on E-Verify's mandate from 
liability, and the language in the bill is superb on that 
front, and it is something that we had sought.
    But there is, however, I think something that we have not 
focused on and that people usually do not know. The current law 
and the new law would prohibit employers from discharging 
people until they have gotten a permanent nonconfirmation. 
Okay.
    If, through the process of lodging an appeal, that can drag 
out for many months and potentially when we increased by a 
factor of 12 the number of inquiries, by as much as a year. And 
yet, they are probably going to have to get discharged.
    So, the small employer is going to be very reluctant to 
spend a lot of money training a person, integrating them into 
their 10- or 15-person company. We need to have a----
    Chair Landrieu. I think that is a very legitimate point. So 
continue.
    Mr. Burton. Senator Rubio indicated that the bill would 
allow someone that had been through the I-9 process and had a 
U.S. passport to, in effect, trump E-Verify. Well, while I 
believe that is a very good idea, I read the bill and I do not 
see it in there. I may be mistaken. It is obviously a long 
bill.
    I think it should be in there and I would support it being 
in there. We have proposed it being in there but I do not think 
it is in there.
    Chair Landrieu. Let us follow up on that. But what Senator 
Rubio said, I think, is an excellent answer to that problem 
which would be you could present your passport. End of 
discussion. Everything is fine.
    Senator Rubio. I will just have somebody provide the 
language that cites that provision. If it needs to be improved, 
we can do that. But that is certainly the intent and we believe 
that is exactly what the bill will do to create that safety 
harbor for folks.
    Let me go ahead and let you finish because there is another 
point I want to make.
    Chair Landrieu. If I could just finish and then I will get 
you.
    I think we will provide that language regarding the 
passport. But in the event that a passport is not available, 
because not everyone has a passport, correct? That would be 
very interesting. How many Americans have passports? Who knows 
what percentage of Americans, adult Americans over 18 have 
passports? Does anybody know?
    Mr. Burton. In the neighborhood of five percent.
    Chair Landrieu. Five percent. Let us find that out, please. 
Somebody google it, ask Siri----
    [Laughter.]
    How many Americans over the age of 18 have passports, 
number one.
    Number two, if that is not sufficient, I think this issue 
of what happens when you do have an employee that has been 
hired that gets kicked back because their paperwork is not 
accurate, the burden that that could place on a very small 
employer.
    Now, this is what this Committee focuses on and no other 
Committee in the Congress focuses on this, Senator, and you are 
a proud member of this Committee.
    We are not talking about GE, IBM, you know, Exxon in this 
Committee. We are talking about 20 million businesses that have 
one employee or two employees or, you know, three employees. 
When you have one of your employees, half of your employment, 
one person, that gets kicked back and you operate with two 
people, this is what we need to focus on. Okay.
    So, keep your eyes on this. Ten people, five people, 25 
people, and how this is going to work for them. The big 
companies can figure this out. But this Committee is focused, 
and I am a passionate advocate for these small businesses. I 
have tons of them in my State.
    So, let us figure that out.
    Senator. Let me call on you and then, John, I am sorry, 
Rick.
    Senator Rubio. You actually touched the point I was going 
to raise is I think the passport will go up as a result of 
hopefully more people getting passports.
    The other option that people have and we will share that 
with you as well is there are some states that comply with Real 
ID, not every state does, and we are not mandating that states 
do that.
    But if a state has a Real ID mandate and they can produce a 
picture identification from one of those states, that will also 
apply as de facto proof of legal status.
    So, we are looking for ways to address that issue 
particularly for those that are here. And then those who are 
here on non-immigrant status will also have documentation 
unlike what they have had in the past.
    So, those that do rely on, whether it is guest workers or 
temporary workers or, you know, people that are not permanently 
with status in the United States will also make it easier to 
identify with them.
    Then the key in all of this is to integrate the system. So, 
I just left a moment ago. I was watching the Judiciary 
Committee debate. So, one of the questions is, you know, one of 
the 40 percent of the people in this country illegally did not 
jump a fence. I mean, they came in on some sort of status that 
expired; they are still here. We do not know who they are 
because we do not track the exits. We only track the entries. 
That is going to change.
    So, what will happen hopefully in real time is that on day 
61, if I am here on 90-day visa or what have you, on day 91 the 
system will automatically upgrade and on day 91 you will go 
from being an authorized or authorize to unauthorized. 
Hopefully, that will all be operating in real time.
    I did want to go through, real quickly, the implementation 
schedule. So, the folks who will be immediately required to 
have this in place, the Federal Government, the federal 
contractors. Critical infrastructure will be required to have 
it within one year, and there are some concerns about how that 
language is structured and we should visit that in a broader 
context.
    Employers with more than 5000 employees have two years to 
comply. Employers with more than 500 employees will have three 
years and Ag employees will have four years and all other 
employees, meaning those under 500, will have four years to 
comply.
    So, agriculture and basically small business will have four 
years to come up to this, and we think that is a pretty 
significant period of time to get the infrastructure in place.
    Chair Landrieu. Okay. Let me just comment on that and then, 
Rick, I want you to.
    Under four years which would be terrific if it were all 
small businesses giving them some time. But, Senator Rubio, 
under critical infrastructure, you will have some small 
business owners, depending on how that is identified in the 
bill, falling under that which you pointed out we should be 
concerned about.
    In addition, some federal contractors are very small 
businesses because we really push our federal procurement 
officers to contract with small businesses. We may want an 
exception there because I do believe that the very small 
businesses should be at the end of the compliance chain.
    If they want to, that is fine. If they can do it 
mandatorily, I mean, they can do it voluntarily as they are 
doing it now. But until the system gets work through so that 
they get the benefit of having the most efficient, less 
cumbersome program, and I think you probably agree with that.
    So, let us look at that. And Real ID is embraced by 41 
states, just FYI.
    Senator Rubio. Almost all of them.
    Chair Landrieu. 110 million people over 18 years of age 
have a passport. So, that would probably be 50 percent of 18 
year olds.
    Senator Rubio. A lot higher than I thought.
    Chair Landrieu. A lot higher than I thought as well.
    So, you know, because some people, about a third of our 
country is under 18. So, I am just quickly dividing the rest. 
So, about half. So, about 50 percent of adults have passports 
and 41 states implement some form of ID.
    Senator, I will get you and then I really want Mr. Judson 
to say a word.
    Senator Rubio. I just want for your staff and for yourself, 
on page 425 of the bill it will outline the Real ID and the 
passport.
    Chair Landrieu. You can come forward and read it.
    Senator Rubio. We do not want to read that holding, do we?
    Chair Landrieu. This is very informal. You can sit there 
and read something or speak into the mic.
    Senator Rubio. He has to text his mom to tell her he is on 
C-SPAN.
    [Laughter.]
    Chair Landrieu. Put the mic closer to you.
    Mr. Baselice. It reads from page 424 to page 425, and it 
covers the covered identity documentation. It goes on to say it 
is a United States passport, passport card, or documented 
evidence of lawful permanent resident status, or employment 
authorized status issued to an alien.
    Mr. Burton. Well, that is in the I-9 process. It is the 
same as current law.
    Mr. Baselice. But we are getting rid of the paper I-9 and 
moving to electronic form of I-9 as opposed to just having the 
same paper documents that you will have moving forward in the 
E-Verify system.
    Mr. Burton. That does not, on the face of it, address the 
question. All employers still have to go through the I-9 
process which is always involved in some sort of type A or type 
B identification. Type A being a passport or a permanent 
resident card. Type B being Social Security card or something 
similar like that. That has not really changed. It is just 
changed in form not substance.
    Now, let us hypothesize. The USCIS E-Verify says this 
person gets a TNC. All right. What we need to have is a rule 
that says if they have a blue passport, they are good to go. 
All right. In effect, that a type A identification trumps an E-
Verify TNC.
    You might want to require that the employer notify USCIS 
that there is this problem with their database. But the 
presumption should then shift so that the employer and the 
employee are lawful unless USCIS can disapprove it, because the 
State Department has issued that person a passport. All right. 
And that is not the way the law is.
    Chair Landrieu. That is a very good point. The benefit, if 
you produce a passport issued by the United States, the burden 
of proof should shift away from the person with the passport 
to, you all can fix that.
    Senator Rubio. Yes. That is easy. I do not think that would 
be controversial.
    Chair Landrieu. It is easy to fix and that is a very 
excellent suggestion, not that we can amend the bill in this 
Committee but Senator Rubio has a little bit of an inside 
track.
    Senator Rubio. Well, I think these are the kinds of things 
that I--have they dealt with that part of the bill? When are 
they going to take amendments up?
    Mr. Burton. Today.
    Senator Rubio. They are in the midst of that today. So, I 
think there is still time for those sorts of amendments.
    Chair Landrieu. Well, there most certainly is time, because 
there are going to be amendments on the floor in this bill and 
this bill is just, you know, with all due respect to the 
Senator who is a cosponsor of the bill and is moving through 
the Judiciary Committee, the rest of the Senators are going to 
have a lot to say about what happens when this bill hits the 
floor, and it is not just going to be put in a package and 
rolled on out of here.
    So, we are going to collect a lot of information on this 
Committee; and if it can get marked up in the Judiciary 
Committee, fine. But I am sure it is not going to be perfect 
when it comes out of Judiciary. It can be amended on the floor.
    So, that is a very good suggestion and it is minor but 
important, and that is what we are hoping to give you some 
confidence that we really do want to listen to many, many 
different views of small businesses.
    Rick.
    Senator Rubio. I just wanted to echo what you said. I 
always viewed the bill as a starting point that because it is 
so complex and involves the entire country. This is an issue 
that impacts the entire country.
    I would just actually say that the, I would, even though we 
are under this jurisdictional issues in play, I would encourage 
and will work with, after this conversation with whomever the 
stakeholders are and your staff.
    I think it would be very powerful if there were amendments 
that we could help come up with from the Committee through your 
staff and we could actually say this is a Small Business 
Committee amendment basically, or suggestion. I think the folks 
on Judiciary are looking for that kind of input since their 
expertise is not----
    Chair Landrieu. Exactly. And that is exactly why we are 
having this as the first of three roundtables on points in the 
immigration bill and, Senator, how we present that to you and 
the cosponsors and to Senator Leahy who knows and has blessed 
this roundtable, we do not know whether we will do it in the 
form of an amendment or do it in the form of a letter to you 
all with sort of strong signatures from both sides of our 
Committee, and you are a member of this Committee.
    So, I am really hoping for your leadership and I know you 
have a lot on your plate. So, we will get as much to you as we 
can.
    But, Rick, I want to really calling you and then Ms. Poole 
I will get to you. Do you want to jump in on any of this, Mr. 
Judson, your members and how, listing to all of this, how do 
you think your members are going to feel? Are they going to be 
happy about E-Verify, pushing buttons and getting immediate 
response; and do they trust that that system can work that way?
    Mr. Judson. Thank you, Madam Chairman. Thank you both for 
what you are doing. I think you recognize the bureaucratic 
impact this could have on small business versus small business 
or large business versus small business. I think if you look at 
our membership which is almost 150,000 member companies with an 
average employee base being about eight people, they do not 
have HR departments. They work out of wherever they are.
    Chair Landrieu. Right. They work out of the trunks of their 
cars and their pickup trucks.
    Mr. Judson. They do. But I think it behooves us all to have 
a comprehensive immigration policy. Something we can live with 
and work with. That is affordable, practical, pragmatic.
    One of the things that I think is important in that and I 
could spend the rest of the hour with it. But there are six 
right bullet points. I will be glad to get a copy to you and 
Senator Rubio before this day is over, to make the systems work 
more logically as opposed to why they will not work.
    Chair Landrieu. Perfect.
    Mr. Judson. So, I will be glad to get that to you. But they 
have all been addressed to some degree. The safe harbors if you 
do the right thing, if you are trying to do the right thing.
    The issues of what his employer-employee relationship. The 
fact that you could verify at the initial date of offering of a 
job offer as opposed to waiting three or four or five days when 
the person shows up and you may be hiring an illegal 
unintentionally. So. But I will get those points to you and I 
think they are intended to be contributory and constructive.
    But I think we, as an industry, support the fact that we 
are going to be able to hire people legally. Our industry is in 
desperate need of labor but we want to make sure that it is 
done properly. This is the point that I made three weeks ago to 
your larger Senate immigration hearing here. We want to be a 
contributor.
    Chair Landrieu. Wonderful. And that is very excellent. For 
those of you that are opposed to it, I would love to see you 
come to the other side; but even if you cannot and stay on the 
side opposed, give us some good suggestions because the bill 
may move and it may not. Who knows.
    I mean, I think there is a lot of political power on both 
sides moving it forward. But, you know, until the bill is 
finally passed and signed by the President, it is not the law. 
We have the time to improve it.
    And, I am going to stay focused like a laser on how this 
bill is going to affect 25, you know, employers of 50 and less 
to try to get it, if it is going to get signed it into law, in 
the least intrusive way and the most helpful way possible to 
them, because I really believe in small business in America and 
so do most of the colleagues that serve on this Committee or we 
would not have signed up for it.
    Mr. Burton. Most aspects of this legislation we support. It 
is E-Verify that is our primary concern.
    Chair Landrieu. Okay. And we are trying to try to fix it if 
we can.
    Mr. Burton. We want to do things to make it better.
    Chair Landrieu. Yes. Thank you very much.
    Ms. Poole.
    Ms. Poole. As a small-business owner, I support E-Verify 
because I am a federal contractor; and although it is not 
mandatory, as we stated, when I get a statement of work from 
the government, the government has now put in that compliance 
requirement in the statement of work. They want to make sure 
that we are liable to use E-Verify on the employees that we 
will place on the contract.
    Chair Landrieu. And you are already required to do that?
    Ms. Poole. Yes. And I want to make the point clear. It is 
already in the statement of work coming down from the Federal 
Government.
    I am a federal contractor. I only support the Federal 
Government which means that when I get a statement of work, I 
must do what they tell me to do in the statement of work or 
else I lose my contract and I get a very bad past performance 
rating that the whole world can see.
    Chair Landrieu. But hang on. How could we help you in this 
new system to take a little bit of that burden off of you, 
because now the burden is going to almost shift and maybe it is 
different, I know it is different for federal contractors now.
    But is there any way that this immigration bill can help 
federal contractors like small business contractors giving them 
less burdensome paperwork or accountability that you can see, 
Kathy or Peter, or is their status going to stay the same?
    I mean, right now, and if I am wrong, forgive me. Right 
now, it is voluntary for the country. Nobody has to do it 
except small businesses that are federal contractors. Correct?
    Ms. Lotspeich. And some states where they require it.
    Chair Landrieu. Okay. And some states. Minor. Correct?
    Ms. Lotspeich. Yes.
    Chair Landrieu. So, my question is: Is there anything that 
you can see in this bill that we are drafting that could 
relieve them of some of the burden that they have right now?
    Ms. Lotspeich. No, because they are being asked to use it 
now and they would be asked to use it then. And I did not hear 
anything----
    Chair Landrieu. You are using the same pushbutton system 
now?
    Ms. Poole. Yes.
    Chair Landrieu. So it works for you.
    Ms. Lotspeich. I did not hear any issues you are having.
    Ms. Poole. As a workaround solution, what we are doing 
which may get us in some compliance laws with DOL, the 
Department of Labor, we are trying to hire only cleared 
employees which eases the burden of any discrepancies with the 
E-Verify system.
    So, for example, if I am placing folks in a federal 
contract, you have to have an MBI which is a minimum background 
investigation to come work for me.
    So, when I am interviewing you to put you on the federal 
contract, that is what I asked you.
    Chair Landrieu. Okay. But why cannot when a person walks in 
to comply with your contract, you just press a button and get 
the information whether they are clear or not? Why is that not 
working for her?
    Ms. Poole. If a person----
    Chair Landrieu. Okay. Hold on just one second.
    Kathy, why is that not working for her?
    Ms. Lotspeich. I mean, I am afraid you are going to have to 
ask her. I do not know. She did not give any specific reasons.
    Chair Landrieu. Okay. Go ahead.
    Ms. Poole. If you are cleared, the government has a system 
called JPAS which is through DOD. So, before I hire you, I go 
into JPAS, and have my HR department check you by Social 
Security number and they will see in JPAS when you had a 
minimum background investigation, if you have a top secrets, 
which agency cleared you.
    Chair Landrieu. So, is this because she is a DOD contractor 
that she has a different system than all other small 
businesses, working with different agencies?
    Ms. Lotspeich. What she is talking about is not related to 
E-Verify so I am not sure.
    Ms. Poole. Well, it is.
    Senator Risch. Do you guys recognize that system, though?
    Ms. Lotspeich. No.
    Senator Risch. If you are qualified with that system, does 
it work with----
    Ms. Poole. That is my question. That is what I am saying. 
If they qualify that is another thing that you pointed at. If 
they qualify and they already have a TS clearance and they 
already have a background check----
    Chair Landrieu. Right. They should not have to go through 
twice.
    Ms. Poole. Exactly, because DOD does an extensive two-year 
background on a person.
    Ms. Lotspeich. Okay. I mean we, the regulation was issued 
by the FAR. We did not issue that regulation.
    Chair Landrieu. What is FAR?
    Ms. Lotspeich. The Federal Acquisition Regulations. It is 
part of the Federal Acquisition Regulations.
    Chair Landrieu. Let me suggest this. I am going to suggest 
that after this meeting you all talk and get together and see 
if we can submit something from you, not from small business, 
recommendations to this Committee to either--if she has got to 
go through this now and she says it is not a big problem but 
she has to go through it, then we want this excepted under the 
new system for all of small business contractors working with 
DOD. We do not want them to have to do two. We will talk later.
    Ryan, go ahead.
    Mr. Kearney. I just wanted to echo Rick's comments. You 
know, with the survey that we have, we already see that half of 
our corporate-owned chains use it. The satisfaction among both 
corporate chain users and small business users in about 80 
percent.
    So, it is a high satisfaction level. But when you really 
get down to the details of small businesses and who uses it, it 
is really about 23 percent. So, if you look at those----
    Chair Landrieu. Okay, 23 percent of small businesses are 
voluntarily using.
    Mr. Kearney. That is correct.
    Chair Landrieu. Tell me now again, 23 percent of small 
businesses in America.
    Mr. Kearney. Are early adopters of E-Verify.
    Chair Landrieu. Are early adopters.
    Mr. Kearney. Of restaurants.
    Chair Landrieu. Of restaurants?
    Mr. Kearney. Yes.
    Senator Risch. What do you call a small business?
    Chair Landrieu. And what is a small business, under how 
many?
    Mr. Kearney. Probably 25 I think is what our survey put 
out. But my point in this is if you look at the three quarters 
that do not use it, the overwhelming response on why is because 
they do not have a dedicated HR professional.
    Again, these are restaurants. A lot of restaurants do not 
even have offices or WiFi. So, again, I kind of want to stress 
what Rick said he is if we are going to have a new E-Verify 
system or we are going to make improvements to it, we need to 
limit the burdens.
    Chair Landrieu. Exactly. What I--and I think Senator Risch 
and I are going to be together on this. While I am a supporter 
of comprehensive immigration reform, I am not going to support 
a bill that is overly burdensome to small business.
    So, I am going to really focus on this as this bill moves 
forward. Let us talk about this for a minute. We do not want an 
HR office in every small business in America. We want this on a 
mobile app. We want them in their pickup truck, somebody they 
are hiring out on their ranch, they need somebody to do some 
work, we want it on a mobile app, hit a button, put the 
information in and it comes back immediately.
    And we want to minimize the impact on these businesses. I 
am not interested in setting up, you know, for every farmer in 
America or every, you know, person in America to have to set up 
a big, complicated system.
    Now, we have four years under the current bill, let me 
finish, we have four years under the current bill for small 
business to comply. So, it is not like this year, six months 
they have to. But we can really start working on that now to 
minimize the impact if we work hard on it.
    Go ahead.
    Senator Risch. I apologize. I had to step out.
    Chair Landrieu. Go ahead.
    Senator Risch. Have you had a discussion about, and this is 
just a rumor. I heard that they have been talking about 
eliminating the ability, the option to pick up the telephone 
and call as opposed to using the Internet.
    Have you had any discussion about that?
    Chair Landrieu. Has anybody heard anything about that, 
about not being able to use the telephone?
    Mr. Kearney. The toll-free telephoning option is included 
in the legislative text.
    Senator Risch. Is in the current text?
    Mr. Kearney. That is correct.
    Senator Risch. Okay.
    Chair Landrieu. Toll free.
    Mr. Kearney. In both S. 744 and The House Legal Workforce 
Act.
    Senator Risch. Is that important to you?
    Mr. Kearney. That is very important.
    Senator Risch. Mr. Burton, is that important to your 
people?
    Mr. Burton. It is not something that the members that I 
have talked to, which has been a lot, have talked a lot about.
    Senator Risch. It will now.
    It is for somebody who does not have a computer. It will be 
very important.
    Mr. Burton. Right. But in this day and age at least most of 
the guys who are involved with us in terms of giving us input 
probably do have computers. So, I mean it makes a lot of sense 
to me. Do not get me wrong. It is just not something I have 
heard a lot about.
    Chair Landrieu. Okay. Go ahead. I am sorry, Ryan, did you 
finish. I want you to finish and then please, Frank, because we 
only have about 15 more minutes.
    Mr. Kearney. Okay. I will be very brief. Just adding to the 
telephonic option, I mean, think of sort of your average small 
restaurant, your corner restaurant, you do not necessarily have 
an office or maybe a computer. It depends. The ability to have 
that toll-free number at zero cost to the employer is important 
to us.
    Chair Landrieu. Okay. Frank and then John and then Ms. 
Poole.
    Mr. Fiorille. I just wanted to bring up the point on this.
    Chair Landrieu. Put the mic closer to you.
    Mr. Fiorille. The burdensome for small businesses and that. 
The businesses always have the option to outsource that. For 
example, small business do not want to do payroll. They do not 
want to worry about the compliance stuff. They can outsource 
that to a company like Paychex. So, I think these small 
businesses always will have that option to do something like 
that.
    The other example I would like to mention to is this 
reminds me of my background is in banking. And when banks put 
in the AML OFAC screening processes, back then there were a lot 
of issues in the beginning but they all got worked out to where 
the process over years got very smooth and is very well run. To 
me it is very analogous to that.
    The last point I want to make, what we did not really 
mention, I do not think, is the self-check process that they 
can do. So, the employees can actually go in and kind of get 
almost like preapproved, if I am correct, to be self-checked on 
this. Is that correct?
    Chair Landrieu. Kathy is that. She is saying no. Go ahead.
    Ms. Lotspeich. No. You can check yourself but you cannot 
take that to your employer. Your employer still has to verify 
that.
    Mr. Fiorille. But you can do it, right? You can go ahead 
and check yourself, right?
    Ms. Lotspeich. Yes, you can check yourself.
    Mr. Fiorille. So, maybe there is some improvement in there 
that we could work on.
    Chair Landrieu. That is interesting. Also knowing that when 
you were out, Senator, we found a good thing that half the 
adults have passports, more than we thought. Half the people 
over 18 approximately have passports. And that if we put a 
passport, if you get into a jam and you can produce a passport, 
we could write the bill that it would clear you immediately.
    Senator Risch. Is that in the text now?
    Chair Landrieu. Well, they are working on it. Senator Rubio 
does not, he says it is but it might not be as specific as it 
should be. So, that is kind of a good idea.
    Senator Risch. And a passport would cure all ills.
    Chair Landrieu. It could. That is one of these suggestions. 
Now, what the Judiciary Committee will think about this or what 
other Senators will think, but I think it is kind of an 
interesting thought because that is a document that has been 
given a lot of attention, before you are given a passport, 
about your status. And if we do not trust our passport system, 
there is something wrong.
    And so, we can shift the burden to the government and not 
have a citizen that has a passport been told, well, you cannot 
work. Well, I have a passport, you know, that has my status on 
this.
    So, I think that is something that we could really help 
with.
    John, and then I will get you Ms. Poole.
    Mr. Arensmeyer. Just really quickly, I wanted to just, a 
couple of other points from our scientific survey of small 
businesses. On our survey 15 percent use E-Verify or a similar 
system, and only one in four said it was easy to use.
    Chair Landrieu. Wait. Only one in four said it was easy to 
use?
    Mr. Arensmeyer. Said it was easy to use.
    Chair Landrieu. This is not good.
    Mr. Arensmeyer. Right. Well, I mean, what I think it says 
is we have a lot of work to do.
    Chair Landrieu. Well, that is what we want to focus on. So, 
can you give us some interesting feedback from them about what 
would make it easier for them?
    Mr. Arensmeyer. Yes. We did not really delve into the 
details but we may do that.
    Chair Landrieu. Well, please do, and the faster you can do 
that with your networks the better because----
    Senator Risch. They ``why'' is real important. Why is it 
not working?
    Chair Landrieu. Why is it not working and, you know, 
because I really. I am just going to speak for myself. I am 
really going to focus, as I said five times this morning, on 
this immigration bill as it moves through and its impact to 
small business, and the better information, the quicker 
information I can get from networks that are both for the bill 
generally and against but how it could be improved the better I 
will be able to help and the members of my Committee will be 
able to help.
    Mr. Arensmeyer. Just real quickly. I mean we just skirted 
over, David talked a little bit about the penalties. I mean the 
penalties are really, really extreme including what is it now? 
Five years. I mean I understand this would not be applied all 
the time but a potential five-year jail sentence. I mean, there 
does need to be, we recognize there needs to be enforcement 
with teeth. I mean, if you do not have teeth, it is not going 
to work.
    Chair Landrieu. If anybody tries to put a small business 
owner in jail like in the next year, this Senator will probably 
lose it. Okay. I know him well enough so I mean we better be 
careful before we start putting people in jail.
    Mr. Arensmeyer. And the other related, not quite as extreme 
thing is that, and again David talked a little bit about this, 
the practicalities as we are talking about all of this and this 
is why we are really pleased you are holding this roundtable, 
because sometimes, you know, people do not recognize that a lot 
of the practicalities that we are talking about are just 
impossible for small businesses.
    Chair Landrieu. Exactly.
    Mr. Arensmeyer. In fact, having an employee in limbo, I 
mean as a longtime small business employer, somebody who runs a 
profit now----
    Chair Landrieu. You cannot do that. You cannot have an 
employee in limbo for more than 24 hours.
    Mr. Arensmeyer. It does not work.
    Chair Landrieu. It does not work for a small business 
owner. It might work, like I said, GE and IBM, they could have 
100 employees in limbo. They would not even flinch.
    Mr. Arensmeyer. Right.
    Chair Landrieu. But when you are running a small business 
and you only have to be people that work for you, having one 
person in limbo is a big deal.
    So, let us focus on the limbo piece and how we can fix that 
and let's focus on jury members saying it is too complicated 
and what we can do.
    And let me get Ms. Poole and then I will get you, Senator.
    Ms. Poole. Real quickly. I would like to see three things 
come out on this whole discussion. For me as a federal 
contractor, the burden should be on the employee, not the 
employer, because right now everything I bid is lowest price, 
technically acceptable. If I have to lower my profit margin to 
stay afloat so I do not sink as a small woman-owned business, 
then I also have to keep the employee on the payroll until this 
thing happens and I can not bill him to the government. And if 
I fire the employee, I may go to jail.
    So, I really would like to see something come out of that.
    Chair Landrieu. You need help.
    Ms. Poole. Yes.
    Chair Landrieu. You need help. We are here to try to help.
    Ms. Poole. Thank you.
    Chair Landrieu. Anything else you want to add?
    Ms. Poole. That is basically it. Thank you.
    Senator Risch. Well, let me say that, first of all, and, 
David, to you and to others who have reservations like myself, 
this is the one shot we have got because when this bill was 
drafted, my experience, I did almost 30 years in our State 
senate, and as with every law, what you just talked about the 
law of unintended consequences comes back and bites us more 
often than not.
    At the State level we fixed them every year. This outfit 
never fixes these things. They pass the monumental 3000-page 
bills and not only is the bill a wreck but then the thousands 
of pages of regulations that follow it come out and they are 
nothing like we intended at all.
    So, the language of the bill needs to be specific. It needs 
to tell these agencies what they can and, more importantly, 
what they cannot do.
    So, now is our chance and we have got to be serious about 
this because if this thing does go, we are all going to have to 
live with it. So, we need to be really serious about looking 
for the unintended consequences in here and how it is going to 
attack us.
    Thank you, Madam Chairman.
    Chair Landrieu. Thank you. And we are going to have 
comments from those who have up. Go ahead, Ms. Poole.
    Ms. Poole. No.
    Chair Landrieu. Done. Okay. If you could put your little 
marker down.
    Mr. Judson.
    Mr. Judson. Senator, your comment of unintended 
consequences is very accurate. We have encouraged our members 
whether they have to or not to try to use the E-Verify system, 
want to get familiar with it. Something is coming and we want 
to be on the cutting age with it.
    But I think the biggest concern they have across-the-board 
is that of accuracy. If it is .26 percent or 2.6 percent or 26 
percent, that is quite a variance. If we are going to use it, 
if we are going to have something, we make sure that it is 
covered properly. It is accurate. That if we hire someone, that 
person is legitimately employable and we can begin a training 
process, because in our industry these are entry level jobs for 
the most part and that is where the immigrants are starting. 
That is where even our own domestic labor is starting with the 
opportunity to learn a trade.
    So, we make an investment in these people and we want to 
make sure they are being hired properly. To do that, we have to 
start with the premise that the information we receive from the 
E verification is accurate.
    Chair Landrieu. Okay. I am going to come back to you to do 
see if our idea of a mobile app is in your plans to develop 
one.
    Mr. Burton.
    Mr. Burton. I just wanted to mention a couple of quick 
things. First of all, to emphasize John's discussion of the 
penalties, even a first-time violation is $2- $5000 per 
violation, all right, for not using E-Verify in the latest 
bill. It has been higher.
    But that means that if you, say, had 10 employees and your 
employees are all legal, you just did not use E-Verify, that 
you are potentially on the hook for a $50,000 penalty for the 
first time you did not use E-Verify. These penalties really, I 
think, show a lack of perspective in terms of what they can do 
to a small firm.
    Chair Landrieu. So, in the bill there is a penalty for not 
using E-Verify?
    Mr. Burton. Uh-huh.
    Chair Landrieu. In the bill.
    Mr. Burton. Correct.
    Chair Landrieu. Okay. And there are also penalties, well, 
for not using it and they are graded up. Okay.
    Mr. Burton. Penalties for hiring unauthorized workers but 
for just----
    Chair Landrieu. But they are hard different penalty is for 
different, okay.
    Mr. Burton. In point of fact, probably it would be imposed 
concurrently.
    Senator Risch. Should not the room rule be no harm-no foul, 
that is, if you hired somebody whether you use E-Verify or did 
not use E-Verify and the person is perfectly legitimate person 
to work----
    Mr. Burton. We would be absolutely fine with that.
    Senator Risch. That would seem to me, I mean, that is 
common sense and that does not always work in Washington, D.C., 
but that is a common sense approach to this thing. No harm-no 
foul should be the law.
    Mr. Burton. I just also wanted to make you, Senator 
Landrieu, the wait is not going to be a couple of days. I mean, 
GAO has determined that now it is on average three months which 
means many times it is more than that.
    Once we increase by a factor of 12 a number of people going 
through this system, it is going to be very long. It is not 
going to be simple.
    Chair Landrieu. We are going to try to make it better. Go 
ahead.
    Mr. Burton. The other thing is that we need to have 
independent evaluation of this. I mean, I am sure you see this 
all the time in your oversight capacity. Unless GAO or the 
Inspector General, someone else is evaluating the error rates, 
you are going to be told one story rather than another.
    Chair Landrieu. Correct. We do not want them evaluating 
themselves.
    Mr. Burton. That is correct, and then we need to have 
actual consequences and standards. So, standards as to what the 
error rates should be and then consequences if they are not.
    You know, I have some ideas of what the standards should be 
but the consequences could easily be simply that they do not 
apply to the smallest businesses because those are the 
businesses that are going to have the most adverse consequences 
when you have unjustified errors in the system.
    Chair Landrieu. Thank you. Kathy, will you respond and then 
we are going to wrap up and have some closing remarks.
    Ms. Lotspeich. Sure. Thank you very much.
    I just wanted to say, you mentioned a couple of times about 
30 days or three months for resolving a TNC. That would be a 
very, very extreme case. I just wanted to let you know that the 
average right now for resolving a TNC with the Social Security 
Administration is 3.4 days, and the average with resolving one 
with the Department of Homeland Security is 5.6.
    Chair Landrieu. Okay. Averages are important and I want to 
say this because if Bill Gates, when he was worth $40 billion, 
I think he is worth a lot more than that. But if he walked into 
a homeless shelter, you know, one day and there were 39 other 
men there, the day before he got there their average would be, 
you know, zero.
    And if he spent one night in the homeless shelter and you 
took an average, their average would be, you know, $1 billion 
each. Not a good reflection of what the homeless shelter really 
looks like. Average is can throw things off a lot.
    So, what I would like is not just averages submitted by 
what your worst case was, what your, you know, best case was, 
kind of mediums and ranges from you all about X number of cases 
the X amount of time.
    Averages are but they are not always as accurate a picture 
of what is going on in. All right. The way I think we should 
end this, and Senator, we want to add some ending remark.
    I am very encouraged to by what I heard today because I 
think there were some excellent suggestions made by all of you. 
Those of you that are leaning for, towards supporting the bill, 
some of you are leaning against supporting the bill but I think 
all of you gave some great input.
    And particularly from a federal contractor that is already 
being mandated to operate in the system, we got some very good 
information from you, Ms. Poole.
    I am going to talk with Senator Risch about how he wants to 
proceed. But one thing that we have done after these 
roundtables is gather all this information, majority and 
minority staff, and then almost have like a staff working group 
that could work together to sort through some of the ideas that 
both the Democratic staff and the Republican staff could agree 
on.
    And then the Senator and I will look at that document and 
if we can fashion something together that we could send to the 
Judiciary Committee for their consideration or we might put 
something together that could turn into a floor amendment, a 
small business floor amendment jointly supported by Republicans 
and Democrats, that is one possibility.
    The other is our staffs meet. We do not completely agree on 
everything. The Republicans may have a document that they would 
submit. The Democrats may submit a document.
    But I promise you that the suggestions that you all have 
made today you will see them again. And we really appreciate 
it.
    This record will be open for two weeks until May 30. So, 
any additional information you want to send; and finally, John, 
I really want you to follow-up, if you can, with your survey 
members of your three fourths that said they are not happy with 
the system and try to see if they can identify these three or 
four things that they are least happy with. If anybody else 
wants to do that, that would be great.
    Go ahead.
    Senator Risch. Madam Chairman, first of all, let me say 
that, you know, we are dealing with a very narrow part of the 
immigration reform bill that is being talked about here.
    My experience over many, many years is I have very, very 
little confidence in the Federal Government to do just about 
anything. When this thing is enacted, I absolutely guarantee 
you there is going to be problems with it; and all we can do 
for the purposes of self-preservation is to twist on it as hard 
as we can right now, try to anticipate what the consequences 
are going to be, and do the best we can to make it as simple 
and least burdensome to particularly small businesses.
    We always talk about small businesses here and that is 25 
people, I guess even up to 500 people on some definitions that 
we have. But small businesses to me are people that employ one, 
two, three, four, five people and these are the people that are 
going to get caught up in this mess.
    I think it is up to us, up to this Committee and up to you 
who advise us to try to make this pill as easy to swallow as it 
can, knowing it is going to be a tough pill to swallow.
    Thank you, Madam Chairman.
    Chair Landrieu. Thank you. And, the meeting is adjourned.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

[GRAPHIC] [TIFF OMITTED] T6554.001

[GRAPHIC] [TIFF OMITTED] T6554.002

[GRAPHIC] [TIFF OMITTED] T6554.003

[GRAPHIC] [TIFF OMITTED] T6554.026

[GRAPHIC] [TIFF OMITTED] T6554.004

[GRAPHIC] [TIFF OMITTED] T6554.005

[GRAPHIC] [TIFF OMITTED] T6554.006

[GRAPHIC] [TIFF OMITTED] T6554.029

[GRAPHIC] [TIFF OMITTED] T6554.030

[GRAPHIC] [TIFF OMITTED] T6554.031

[GRAPHIC] [TIFF OMITTED] T6554.032

[GRAPHIC] [TIFF OMITTED] T6554.033

[GRAPHIC] [TIFF OMITTED] T6554.034

[GRAPHIC] [TIFF OMITTED] T6554.035

[GRAPHIC] [TIFF OMITTED] T6554.036

[GRAPHIC] [TIFF OMITTED] T6554.037

[GRAPHIC] [TIFF OMITTED] T6554.038

[GRAPHIC] [TIFF OMITTED] T6554.039

[GRAPHIC] [TIFF OMITTED] T6554.040

[GRAPHIC] [TIFF OMITTED] T6554.041

[GRAPHIC] [TIFF OMITTED] T6554.042

[GRAPHIC] [TIFF OMITTED] T6554.043

[GRAPHIC] [TIFF OMITTED] T6554.044

[GRAPHIC] [TIFF OMITTED] T6554.007

[GRAPHIC] [TIFF OMITTED] T6554.008

[GRAPHIC] [TIFF OMITTED] T6554.009

[GRAPHIC] [TIFF OMITTED] T6554.010

[GRAPHIC] [TIFF OMITTED] T6554.012

[GRAPHIC] [TIFF OMITTED] T6554.011

[GRAPHIC] [TIFF OMITTED] T6554.013

[GRAPHIC] [TIFF OMITTED] T6554.014

[GRAPHIC] [TIFF OMITTED] T6554.015

[GRAPHIC] [TIFF OMITTED] T6554.016

[GRAPHIC] [TIFF OMITTED] T6554.017

[GRAPHIC] [TIFF OMITTED] T6554.018

[GRAPHIC] [TIFF OMITTED] T6554.019

[GRAPHIC] [TIFF OMITTED] T6554.020

[GRAPHIC] [TIFF OMITTED] T6554.021

[GRAPHIC] [TIFF OMITTED] T6554.022

[GRAPHIC] [TIFF OMITTED] T6554.025

[GRAPHIC] [TIFF OMITTED] T6554.027

[GRAPHIC] [TIFF OMITTED] T6554.028

[GRAPHIC] [TIFF OMITTED] T6554.045

[GRAPHIC] [TIFF OMITTED] T6554.046

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
